No. 19-956
In the

Supreme Court of the United States
SHERIFF DONALD E. CRAIG, SGT. TRAVIS PALMER
CURRAN, A.K.A. TRAVIS LEE PALMER, DEP.
FRANK GARY HOLLOWAY, DEP. KEELIE KERGER,
DEP. BILL HIGDON, DEP TODD MUSGRAVE, et. al.,
Petitioners,
v.
JANET TURNER O’KELLEY, INDIVIDUALLY
AND AS PERSONAL REPRESENTATIVE
OF THE ESTATE OF JOHN HARLEY TURNER,
JOHN ALLEN TURNER,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Eleventh Circuit

REPLY BRIEF
Russell A. Britt
Counsel of Record
Phillip E. Friduss
Jacob O’Neal
Hall Booth Smith, P.C.
191 Peachtree Street, N.E., Suite 2900
Atlanta, GA 30303
(404) 954-5000
rbritt@hallboothsmith.com
Counsel for Petitioners
295283

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . ii
The Petitioners’ Questions Presented Were Not
Waived Below. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
T he Ci rcu it Opi n ions Ca nva ssed In T he
Petition Clearly Pose A Split On The Issue
Of How Recent A Decision Must Be To
Constitute Clearly Established Law Both
Explicitly And By Necessary Implication . . . . . . . . . 7
The Fact That There Were Multiple Decisions Issued
In Moore Underscores The Lack Of Finality
Of Panel Decisions And Their Insufficiency
To Constitute Clearly Established Law . . . . . . . . . . . 8
Whether Exigent Circumstances Existed In This
Case Under Intra-Circuit Precedent In Fact Is
Not The Subject Of Appeal, And Therefore Not
A Basis For Denial Of Certiorari . . . . . . . . . . . . . . . 10
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

ii
TABLE OF CITED AUTHORITIES
Page
CASES:
Ashcroft v. al-Kidd,
563 U.S. 731, 131 S. Ct. 2074, 179 L. Ed. 2d 1149
(2011) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Bryan v. United States,
913 F.3d 356 (3d Cir. 2019) . . . . . . . . . . . . . . . . . . . . . . 8
Burwell v. Hobby Lobby Stores, Inc.,
573 U.S. 682, 134 S. Ct. 2751,
189 L. Ed. 2d 675 (2014) . . . . . . . . . . . . . . . . . . . . . . . . 1
Chappell v. Wallace,
462 U.S. 296, 103 S.Ct. 2362 (1983) . . . . . . . . . . . . . . . 7
E.I. Du Pont De Nemours & Co. v. Smiley,
138 S. Ct. 2563 (Mem), 2564,
201 L. Ed. 2d 1100 (2018) . . . . . . . . . . . . . . . . . . . . . . . 7
Harlow v. Fitzgerald,
457 U.S. 800 (1982) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Harlow v. Fitzgerald,
457 U.S. 800 (1982) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Lintz v. Skipski,
25 F.3d 304 (6th Cir. 1994) . . . . . . . . . . . . . . . . . . . . . . 8
Moore v. Pederson,
801 F.3d 1325 (11th Cir.), withdrawn from bound
volume, opinion vacated and superseded, 806 F.3d
1036 (11th Cir. 2015) . . . . . . . . . . . . . . . . . . . . . . . . . 2, 9

iii
Cited Authorities
Page
Moore v. Pederson,
806 F.3d 1036 (11th Cir. 2015)  . . . . . . . . . . . . 3, 4, 5, 10
Musacchio v. United States,
136 S. Ct. 709, 716, 193 L. Ed. 2d 639 (2016) . . . . . . 10
United States v. Stanley,
483 U.S. 669, 107 S. Ct. 3054,
97 L. Ed. 2d 550 (1987) . . . . . . . . . . . . . . . . . . . . . . . . . 7
United States v. Wells,
519 U.S. 482, 117 S.Ct. 921, 137 L.Ed.2d 107
(1997) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
White v. Pauly,
137 S.Ct. 548, 196 L.Ed.2d 463 (2017)  . . . . . . . . . . . . 2
Yee v. City of Escondido, Cal.,
503 U.S. 519, 112 S. Ct. 1522,
118 L. Ed. 2d 153 (1992) . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTES AND OTHER AUTHORITIES:
Fed. R. App. P. 3 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Fed. R. App. P. 4 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Fed. R. App. P. 5(b)(2)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

1
The Petitioners’ Questions
Presented Were Not Waived Below.
The bulk of the Response is devoted to the incorrect
assertion that the Petitioners’ questions presented, or
the issues raised therein, were not preserved below and
therefore have been waived on appeal, and therefore this
case is not a proper vehicle for this Court to decide those
issues because the Petitioners conceded the issues raised
in the Petition. (Response, pp. 11-21). To the contrary,
at every opportunity, the Petitioners have asserted
their entitlement to qualified immunity, and they timely
addressed the Eleventh Circuit panel’s errors once those
errors were made.
It is true that this Court “do[es] not generally
entertain arguments that were not raised below and are
not advanced in this Court by any party[.]” Burwell v.
Hobby Lobby Stores, Inc., 573 U.S. 682, 721, 134 S. Ct.
2751, 2776, 189 L. Ed. 2d 675 (2014). But as shown by the
record and the following detailed procedural history,
the Petitioners have raised the issues presented in this
Petition at every available juncture. And, in any event, the
Petitioners were not required to exhaustively formulate
every nuanced iteration of argument on each facet of
qualified immunity, nor to anticipate every conceivable
error of a Court of Appeals, so long as they did in fact raise
the defense of qualified immunity, offer some argument in
support of the same, and properly raise the issues in their
questions presented. See, e.g., Yee v. City of Escondido,
Cal., 503 U.S. 519, 520, 112 S. Ct. 1522, 1525, 118 L. Ed.
2d 153 (1992) (holding that “the fact that [a regulatory
taking claim] was not raised below does not mean that it
could not be properly raised before this Court, since once

2
petitioners properly raised a taking claim, they could
have formulated, in this Court, any argument they liked
in support of that claim” and determining not to consider
an issue on grounds that it was not raised in the questions
presented rather than on grounds that the issue was not
raised in proceedings below).
The Petitioners first raised the defense of qualified
immunity in their timely filed Pre-Answer Motion to
Dismiss on February 27, 2018. In their initial Brief, the
Petitioners expressly laid out the argument that the
Petitioners are entitled to qualified immunity under
the Harlow analysis because the law was not clearly
established at the time of the underlying incident that the
Petitioners’ acts violated Harley Turner’s constitutional
rights. (See Case No. 2:17-cv-00215-RWS, N. D. Ga., Doc.
21-1, pp. 7-15). Of note, the Petitioners expressly stated
in their Brief that, pursuant to this Court’s established
precedent, “clearly established law should not be defined at
a high level of generality… [r]ather, the clearly established
law must be particularized to the facts of the case.”(Id.,
pp. 9-10, citing White v. Pauly, 137 S.Ct. 548, 550, 196
L.Ed.2d 463 (2017), Ashcroft v. al-Kidd, 563 U.S. 731, 742,
131 S. Ct. 2074, 179 L. Ed.2d 1149 (2011)). There was, of
course, no need—and no obligation—for the Petitioners to
raise the issue of whether the panel decision of a Circuit
Court decided a mere nine (9) days prior to the underlying
conduct could constitute clearly established law, because
(1) the Petitioners’ Motion, just filed, had yet to be ruled on,
let alone appealed to the Eleventh Circuit, and therefore
(2) no question of whether Moore’s timing or procession
from a panel could constitute clearly established law had
arisen.

3
Moore v. Pederson, 806 F.3d 1036 (11th Cir. 2015)
reared its head for the first time in the Respondents’
Response in Opposition to the Motion to Dismiss, wherein
the Respondents argued—incorrectly—that Moore
controlled the Petitioners’ conduct in this case, simply
for the generalized proposition that “police cannot make
a valid Terry stop within the boundaries of the home,” on
which basis the Respondents argued that the Petitioners
were not entitled to qualified immunity for lack of probable
cause and exigent circumstances. (Case No. 2:17-cv-00215RWS, N. D. Ga., Doc. 22, pp. 13-15). The Petitioners then
addressed this argument in their Reply. (See generally
Case No. 2:17-cv-00215-RWS, N. D. Ga., Doc. 25).
There followed the trial court’s order granting the
Petitioners’ Motion, wherein the trial court held, in
relevant part, that Moore did not apply—not because
of its extreme novelty nor its proceeding from a panel,
but because Moore was too factually dissimilar from the
events underlying this matter to put the Petitioners on
notice that their conduct amounted to a constitutional
violation. (App. 38a-39a). At this juncture, the Petitioners
were the victorious parties—again, they had neither the
need, nor the obligation, to raise an issue on appeal, for
there was no adverse ruling, and therefore no issue, for
the Petitioners to appeal.
The Respondents then, in their Notice of Appeal,
repeated their arguments on Moore. And there was, of
course, no opportunity for the Petitioners to respond to
the Notice of Appeal, as there is no provision for the same
in law. See generally Fed. R. App. P. 3, 4 (containing no
provision for reply to a Notice of Appeal taken as of right);
contrast Fed. R. App. P. 5(b)(2) (providing for answer or
cross-petition to petition for permission to appeal).

4
In their initial Brief on appeal to the Eleventh Circuit,
the Respondents/ Appellants (as they were then) repeated
this same argument about Moore essentially verbatim.
(See Appeal No. 18-14512-EE, Brief of Appellants, pp. 1920, filed December 24, 2018). In response—and crucially,
in the very first opportunity for the Petitioners to raise any
issue on appeal, as the then-Appellees—the Petitioners
expressly argued not only that Moore could not strip
the Petitioners of qualified immunity because of Moore’s
factual dissimilarity, but “[n]or can a decision, having
been made just 9 days prior to the incident, be deemed
so clearly established that every reasonable officer would
know that [the] actions here were impermissible.” (Appeal
No. 18-14512-EE, Brief of Appellees, p. 36, filed March
13, 2019). The Respondents/ Appellants then replied; and
in their reply brief, the Respondents failed to raise any
response to the Petitioners’ contention that the recentness
of Moore made Moore impossible as a source of clearly
established law. (Appeal No. 18-14512-EE, Reply Brief
of Appellants, pp. 3-4).
The three-judge panel of the Eleventh Circuit then
issued its Opinion, from which the Petitioners seek to
appeal, holding in relevant part that Moore constituted
“clearly established” law as of the date of the underlying
incident here. (App. 1a). The Eleventh Circuit panel did not
specifically address the Petitioners’ argument concerning
the recentness of the Moore decision; but by its holding
necessarily implicated the proposition that the mere nine
(9) days from Moore was sufficient for Moore to become
“clearly established” law.
At this point, for the first time in this matter, the
Petitioners had a decision applying Moore to their conduct

5
and stripping them of their immunity on that basis.
Timely, the Petitioners moved for a panel rehearing or, in
the alternative, rehearing en banc, in which the Petitioners
explicitly again raised the issue of Moore’s recentness,
as well as the panel’s error in interpreting “clearly
established law” at too high a level of generality. (Appeal
No. 18-14512-EE, Motion, filed August 6, 2019, pp. C-4,
8-9, 12-16). Therein, the Petitioners expressly argued that
not only is the nine day period too recent in itself, but also
that the uncertainty generated by the as-yet unexhausted
appeals process in the supposedly controlling case means
that the case cannot constitute clearly established law,
because the controlling opinion may be altered, vacated,
or reversed. (Id., p. 15) (“Moreover, with a nine-day-old
Eleventh Circuit opinion, it is unknown whether a panel
rehearing or rehearing en banc will be granted, or if the
Supreme Court will grant certiorari and possibly overturn
the precedent.”). The Motion was denied, and the subject
Petition followed.
Simply put, the Respondents’ contention that the
Petitioners did not raise, and therefore failed to preserve
on appeal, the issues articulated in their Questions
Presented is incorrect and directly contradicted by the
record. At every possible turn, the Petitioners argued
and preserved the issue of whether they are entitled to
qualified immunity on the facts as pled by the Respondents;
and, as the Moore panel itself recognized, the qualified
immunity analysis necessarily requires assessment of
whether a precedent provides fair notice to governmental
officials that their conduct is unconstitutional, in order to
constitute “clearly established” law. See Moore, 806 F.3d
at 1046 (“[t]he touchstone of qualified immunity is notice.”).
The Petitioners never “conceded,” expressly or otherwise,

6
that Moore constitutes instructive clearly established law.
(Response, pp. 12-13). Instead, they have consistently
maintained that, though Moore does articulate a valid
“basic principle” that a Terry-like stop may not be
conducted in a home absent exigent circumstances,
that principle itself is too generalized for the qualified
immunity analysis this Court has propounded to notify the
Petitioners that their conduct was unconstitutional; and
Moore therefore cannot constitute clearly established law.
(Appeal No. 18-14512-EE, Brief of Appellees, p. 37) (“As
for the substantive law, Moore is indeed our guidepost.
As for utilizing Moore to show it was clearly established
law. . . not so much. In fact, not at all.”).
As it relates, unlike the Petitioners’ arguments, the
Respondents’ argument that dismissal was not proper
because they pled in their Complaint that the Petitioners
subjectively knew there was no exception to the warrant
requirement is raised for the first time before this Court,
and therefore not properly in consideration should the
Petition be granted. (See Response, pp. 21-22). Even if
it were not, “if the official pleading the defense claims
extraordinary circumstances and can prove that he
neither knew nor should have known of the relevant
legal standard, the defense should be sustained.” Harlow
v. Fitzgerald, 457 U.S. 800, 818 (1982). No matter what
conclusory allegations the Respondents pled, the Petitioners
could not have known subjectively that Moore proscribed a
warrant requirement exception in this case because Moore
was too factually dissimilar, too recent, and was subject to
an as-yet unexhausted appeals process at the time of the
Petitioners’ conduct. This pleading is therefore not a sound
basis for denial of certiorari.

7
The Circuit Opinions Canvassed In The Petition
Clearly Pose A Split On The Issue Of How Recent A
Decision Must Be To Constitute Clearly Established
Law Both Explicitly And By Necessary Implication.
The Respondents argue that there is no circuit split
on the issue of how much time must pass between the
precedent at issue and the underlying conduct, such that
an officer may have notice that his conduct violates the
Constitution, since some decisions did not precisely rule on
the question. (Response, pp. 19-20). What the Respondents
conveniently ignore, however, is that a circuit split can
exist and need not result from Circuit Courts expressly
addressing a question in precisely the same terms, but can
arise when the Circuit Courts reach different answers by
the logically necessary implications of their rulings. See,
e.g., E.I. Du Pont De Nemours & Co. v. Smiley, 138 S. Ct.
2563 (Mem), 2564, 201 L. Ed. 2d 1100 (2018) (citations
and quotations omitted) (“Can an agency advance an
interpretation of a statute for the first time in litigation
and then demand deference for its view? There is a welldefined circuit split on the question. The Court of Appeals
in this case said yes, joining several other circuits who
share that view. . . But two circuits, the Sixth and Ninth,
expressly deny Skidmore deference to agency litigation
interpretations, and the Seventh does so implicitly….I
believe this circuit split and these questions warrant this
Court’s attention.”) (emphasis supplied). And a proposition
of law, as a general matter, need not be expressly decided
in order to constitute precedent in itself. See, e.g., United
States v. Stanley, 483 U.S. 669, 681, 107 S. Ct. 3054,
3062, 97 L. Ed. 2d 550 (1987) (stating that in a previously
decided case, Chappell v. Wallace, 462 U.S. 296, 103 S.Ct.
2362 (1983), this Court “implicitly recognized” that there

8
are varying levels of generality at which one may apply
a “special factors” analysis in determining the propriety
of a Bivens action).
The fact that timing of precedent alone was not the
dispositive issue in some of the cases canvassed by the
Petitioners in the determination of whether a governmental
official is entitled to qualified immunity is neither here nor
there. Each and every one of those cases decided that
an official was, or was not, entitled to immunity on the
basis of the existence or nonexistence of some previously
decided legal precedent—and, as the Petitioners showed,
those precedents were decided with wild variations in the
amount of time between the applicable precedent and the
underlying conduct at issue in the Circuit Court cases
applying it. See, e.g., Lintz v. Skipski, 25 F.3d 304, 306
(6th Cir. 1994) (120 days sufficient to “clearly establish”
applicable law); Bryan v. United States, 913 F.3d 356,
358 (3d Cir. 2019) (two days not sufficient for decision to
constitute “clearly established” law). Certiorari should be
granted so that this Court can provide guidance to resolve
these great inconsistencies across the nation.
The Fact That There Were Multiple Decisions
Issued In Moore Underscores The Lack Of Finality
Of Panel Decisions And Their Insufficiency To
Constitute Clearly Established Law.
The Respondents attempt to make much of the fact
that the Moore decision decided a mere nine (9) days prior
to the underlying events in this case was itself preceded
by an earlier panel decision in that same matter, decided
some thirty-eight (38) days before the Petitioners’ conduct,
which was substituted by the later decision—apparently

9
arguing that, since the earlier decision contained the same
proposition that a Terry stop may not be conducted in the
home absent exigent circumstances, that earlier decision
extended the Petitioners’ putative notice of the supposed
constitutional infirmity of their conduct from nine (9) to
thirty-eight (38) days. (Response. pp. 15-16).
First, it was the second Moore decision, decided a
mere nine (9) days prior to the underlying conduct in
this matter, which the Eleventh Circuit panel applied to
strip the Petitioners of their qualified immunity, and it is
from that application the Petitioners seek to appeal. (See
Appeal No. 18-14512-EE, Opinion, issued July 16, 2019, p.
19) (“In Moore, decided on October 15, 2015, we held that
an officer may not conduct a Terry-like stop in the home
in the absence of exigent circumstances, consent, or a
warrant. . . . Thus, binding precedent clearly established,
at the time of the encounter on October 24, 2015, that a
seizure or entry within the home without a warrant or
exigent circumstances violates the Fourth Amendment’s
prohibition on unreasonable searches and seizures.”)
(citations and quotations omitted).
Second, it is true that the second Moore opinion
substituted an earlier opinion containing the same general
proposition. See Moore v. Pederson, 801 F.3d 1325 (11th
Cir.), withdrawn from bound volume, opinion vacated and
superseded, 806 F.3d 1036 (11th Cir. 2015). But the fact
that the earlier panel decision was later withdrawn a mere
twenty-nine (29) days after it was issued, by that same
panel, vividly illustrates the unfinalized, tenuous nature
of panel decisions wherein the further appeals process has
yet to be exhausted. And this subjection of panel precedent
to the possibility of sudden change or rescission, as the

10
Petitioners argued in their Petition and below, is exactly
the kind of uncertainty in the contents and prescriptions
of the law against which the doctrine qualified immunity
is intended to guard. See, e.g., Musacchio v. United
States, 136 S. Ct. 709, 716, 193 L. Ed. 2d 639 (2016),
quoting United States v. Wells, 519 U.S. 482, 487, n. 4,
117 S.Ct. 921, 137 L.Ed.2d 107 (1997). (“An appellate
court›s function is to revisit matters decided in the trial
court. . . . [I]t is not bound by [rulings below] under
the law-of-the-case doctrine.”); Harlow v. Fitzgerald,
457 U.S. 800, 818 (1982) (“If the law at the time was not
clearly established, an official could not reasonably be
expected to anticipate subsequent legal developments[.]”).
This case, therefore, is an ideal vehicle for this Court to
address the uncertainty posed by the prospect that a panel
decision could constitute clearly established law, only to
be rescinded once an officer is stripped of immunity by
the application of such a decision.
Whether Exigent Circumstances Existed In This
Case Under Intra-Circuit Precedent In Fact Is Not
The Subject Of Appeal, And Therefore Not A Basis
For Denial Of Certiorari
Strangely, the Respondents appear to argue that,
since the Eleventh Circuit relied on its own precedent
decided prior to Moore for defining the parameters of
exigent circumstances, its reliance on Moore itself was
not in error because Moore did not announce any new
rules about what “exigent circumstances” are in a given
situation, and therefore an appeal is not warranted.
(Response, pp. 22-23). But the issues the Petitioners seek
this Court to review are not the merits of whether there
were exigent circumstances here, because the qualified

11
immunity analysis does not turn on whether exigent
circumstances for the seizure of Harley Turner actually
existed, but instead on whether the Petitioners had
sufficient notice from prior factually-analogous case law
that their specific conduct violated the Constitution. And
it is the fact that Moore, on which the Eleventh Circuit
panel relied, is not sufficiently factually analogous that
forms one of the bases of the Petition in this matter—that
is, whether or not the Petitioners would know from Moore
that their conduct was unconstitutional on the facts of the
situation they faced, not whether the Eleventh Circuit
correctly concluded that exigent circumstances did not
in fact exist.
CONCLUSION
For the foregoing reasons and those shown in the
Petition, the Petitioners respectfully pray that their
Petition for Certiorari be GRANTED.
			Respectfully Submitted,
Russell A. Britt
Counsel of Record
Phillip E. Friduss
Jacob O’Neal
Hall Booth Smith, P.C.
191 Peachtree Street, N.E., Suite 2900
Atlanta, GA 30303
(404) 954-5000
rbritt@hallboothsmith.com
Counsel for Petitioners

